o

%

Supreme Court, U.S.
FILED

JO- II IS

/

MAY 1 0 m
OFFICE OF THE CLERK

In the Supreme Court for the United States
/

Gregory M. Haynes, Petitioner
v.
Supreme Court of the State of California, Respondent
ON PETITON FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF CALIFORNIA

PETITION FOR WRIT OF CERTIORARI

Gregory M. Haynes
2443 Fillmore, #194
San Francisco, Ca
94115
((415) 424-0283
In Pro Per

fei:

■\u

LZ3

i

Questions Presented
I
Does the California Reciprocal attorney discipline statute—Business and
profession code 6049.1 - violate the standard set forth in Selling v
Radford. 243 U. S. 46, 51 (1917) because it does not provide for a review
of the discipline imposed by another jurisdiction for insufficiency of proof or
for some other reason which would make the imposition of discipline unjust,
where Selling v Radford. 243 U. S. 46, 51 (1917) requires infirmity of prove
and any other reason that would make the imposition unjust as well as due
process considerations .
II
Is the California Supreme Court’s imposition of reciprocal discipline in In
RE Haynes in violation of Selling v Radford. 243 U. S. 46, 49 (1917)
because the it imposed discipline base on a foreign jurisdiction imposition
of discipline where the foreign jurisdiction—the United States District Court
for the Northern District of California-- based its determination of discipline
on a summary judgment record, as opposed to an evidentiary hearing, in
violation of its local rules, which requires a findings of fact, and used a
preponderance of the evidence standard where both the district court and
California Court required a clear and convincing standard. Anderson v.
Liberty lobby.Inc 477 U.S.242,257, (1986); Tolan v. Cotton. 572 U.S. 650,
656 (2014) (per curiam)
Parties

The parties to this action the Supreme Court of the State of California
and petitioner Gregory M. Haynes

2

Table of Contents
Page
1.
2.
3.
4.
5.
6.

Opinion below.................................................
Jurisdiction......................................................
Supreme Court Authority and Statute Involved
Statement of the Case....................................
Reason for Granting Review..........................
Conclusion.......................... .........................
Word Count certification.................................
Proof of service...............................................

5
5
5
7

10
13
14
15
16

Appendix
Table of Authorities Cited

Anderson v. Liberty lobby,Inc 477 U.S.242,257, (1986)
Selling v Radford, 243 U. S. 46. (1917)
In Re Cravton 192 B.R. 970,975 (9th Cir B.A. P. 1996
Statutes and Rules
California Statute
CA Bus & Prof Code § 6049.1
(a) In any disciplinary proceeding under this chapter, a certified copy of a
final order made by any court of record or any body authorized by law or by
rule of court to conduct disciplinary proceedings against attorneys, of the
United States or of any state or territory of the United States or of the
District of Columbia, determining that a member of the State Bar committed
professional misconduct in such other jurisdiction shall be conclusive
evidence that the member is culpable of professional misconduct in this
state, subject only to the exceptions set forth in subdivision (b).
(b) The board may provide by rule for procedures for the conduct of an
expedited disciplinary proceeding against a member of the State Bar upon
receipt by the State Bar of a certified copy of a final order determining that
3

V

the member has been found culpable of professional misconduct in a
proceeding in another jurisdiction conducted as specified in subdivision (a).
The issues in the expedited proceeding shall be limited to the following:
(1) The degree of discipline to impose.
(2) Whether, as a matter of law, the member’s culpability determined in the
proceeding in the other jurisdiction would not warrant the imposition of
discipline in the State of California under the laws or rules binding upon
members of the State Bar at the time the member committed misconduct in
such other jurisdiction, as determined by the proceedings specified in
subdivision (a).
(3) Whether the proceedings of the other jurisdiction lacked fundamental
constitutional protection.
The member of the State Bar subject to the proceeding under this section
shall bear the burden of establishing that the issues in paragraphs (2) and
(3) do not warrant the imposition of discipline in this state.
(c) In proceedings conducted under subdivision (b), the parties need not be
afforded an opportunity for discovery unless the State Bar Court
department or panel having jurisdiction so orders upon a showing of good
cause.
(d) In any proceedings conducted under this chapter, a duly certified copy
of any portion of the record of disciplinary proceedings of another
jurisdiction conducted as specified in subdivision (a) may be received in
evidence.
Supreme Court Authorities
Selling v Radford. 243 U. S. 46, (1917)
Anderson v. Liberty lobbv.lnc 477 U.S.242,257, (1986)

4

In the Supreme Court for the United States
PETITON FOR A WRIT OF CERTIORARI

Petitioner prays that a writ of certiorari issue to review the judgment
below.

1
Opinions Below
The California State Bar Review Opinion, dated Feb 11, 2020. Index,
exhibit a; The California Supreme Court denial of Review of the Opinion,
Dated 10-14-20, index, exhibit b; and denial of petition for rehearing dated
12-9-20., index, exhibit c
2
Jurisdiction
The Supreme Court of California denied the petition for rehearing on
12-9-20. The U.S Supreme Court provided a 150 day period to file the
petition.
3
California Statute and Supreme Court Authority Involved
CA Bus & Prof Code § 6049.1
(a) In any disciplinary proceeding under this chapter, a certified copy of a
final order made by any court of record or any body authorized by law or by
rule of court to conduct disciplinary proceedings against attorneys, of the
United States or of any state or territory of the United States or of the
District of Columbia, determining that a member of the State Bar committed
5

professional misconduct in such other jurisdiction shall be conclusive
evidence that the member is culpable of professional misconduct in this
state, subject only to the exceptions set forth in subdivision (b).
(b) The board may provide by rule for procedures for the conduct of an
expedited disciplinary proceeding against a member of the State Bar upon
receipt by the State Bar of a certified copy of a final order determining that
the member has been found culpable of professional misconduct in a
proceeding in another jurisdiction conducted as specified in subdivision (a).
The issues in the expedited proceeding shall be limited to the following:
(1) The degree of discipline to impose.
(2) Whether, as a matter of law, the member’s culpability determined in the
proceeding in the other jurisdiction would not warrant the imposition of
discipline in the State of California under the laws or rules binding upon
members of the State Bar at the time the member committed misconduct in
such other jurisdiction, as determined by the proceedings specified in
subdivision (a).
(3) Whether the proceedings of the other jurisdiction lacked fundamental
constitutional protection.
The member of the State Bar subject to the proceeding under this section
shall bear the burden of establishing that the issues in paragraphs (2) and
(3) do not warrant the imposition of discipline in this state.
(c) In proceedings conducted under subdivision (b), the parties need not be
afforded an opportunity for discovery unless the State Bar Court
department or panel having jurisdiction so orders upon a showing of good
cause.
(d) In any proceedings conducted under this chapter, a duly certified copy
of any portion of the record of disciplinary proceedings of another
jurisdiction conducted as specified in subdivision (a) may be received in
evidence.

Supreme Court Authority Violated
Selling v Radford. 243 U. S. 46, 49 (1917)

6

4

Statement of the Case

The California Supreme Court imposed reciprocal discipline upon
petitioner Gregory M. Haynes, a

California attorney based on the

California reciprocal statutes, Business and Profession Code 6049.1 which
is in violation of the standard set forth in Selling v Radford. 243 U. S. 46, 49
(1917)
The California Supreme Court imposed reciprocal discipline ( see
index, exhibit c) based on a summary judgment order imposing discipline
by the United States District Court for the Northern District of California,
(summary judgment order, page 1, page 59:21-62:7, page 62:8 to 66:12,
index, exhibit d)
The California attorney reciprocal statutes is in violation of Selling v
Radford. 243 U. S. 46, 49 (1917 because it does not allow for the California
court to consider 1) whether the foreign jurisdiction’s basis for discipline is
infirm or 2) whether there are any other reasons that would make the
imposition of discipline unjust.
In addition, the California Supreme Court imposed applied the statute in
a manner that violates Selling v Radford. 243 U. S. 46, 49 (1917) as the
California Supreme Court relied on the summary judgment record of the
District Court which was in violation of the district court’s local rules,
imposing discipline were the record was factually infirm.

7
■?

•

\.

Business and Profession Code 6049.1 (a) provides that a final order
finding an attorney of professional misconduct is conclusive evidence of
culpability for professional misconduct in California, except for section
6049.1 (b) (2) and (b) 3

Section (b)(2) provides that the conclusive presumption is not applied
provided:
“ Whether, as a matter of law, the member’s culpability determined in
the proceeding in the other jurisdiction would not warrant the imposition of
discipline in the State of California under the laws or rules binding upon
members of the State Bar at the time the member committed misconduct in
such other jurisdiction, as determined by the proceedings specified in
subdivision (a).”
Thus, under (b)(2), culpability for professional misconduct is conclusive
evidence of culpability in California provided the same misconduct is
culpable under California rules and law binding on California attorneys.
Under section 6049.1 (b)(3), the conclusive presumption does not
apply if the other jurisdiction failed to provide fundamental constitutional
protections.
The attorney is not permitted to challenged or “relitigate” whether the
factual basis for the finding of culpability or whether the factual basis
culpability is infirm. See Review Department Opinion, at page 6 (index,
exhibit a)
The statute does not test whether the evidence in the other jurisdiction
that determined culpability is insufficient or infirm, or whether other factors
may make the imposition of discipline unjust. It only test whether the
8

. a
culpability as found in the other jurisdiction, would also support culpability in
California and whether the other jurisdiction lacked fundamental
constitutional protections.
As a result of the statute allowing the conclusive presumption of
culpability to be found, discipline was imposed under the statute based on
an insufficient record in the other jurisdiction. The other jurisdiction—the
United States District Court for the Northern District of California—based its
determination of culpability on a disputed summary judgment record, where
the court noted that it would not to make “many credibility decisions.” (page
62:3-7 of summary judgment order, index exhibit d) (and 59:21 to 66:12
generally)
Further, while the attorney discipline standard in the Ninth Circuit
requires clear and convincing evidence [ In Re Crayton 192 B.R. 970,975
(9th Cir B.A. P. 1996)], the District Court used the lower preponderance of
the evidence standard. Anderson v. Liberty lobby,Inc 477 U.S.242,257,
(1986)
Thus, due to the failure of the statute to allow an independent
review as required by Selling v Radford. 243 U. S. 46, 49 (1917), the
California Supreme Court imposed the conclusive presumption of
culpability, and imposed reciprocal discipline.

9

5

Reason Why the Court should Grant Review
This case should be granted because the California attorney reciprocal
discipline statute in violation of Selling v Radford, 243 U. S. 46, 51 (1917).
As such, effects all attorneys in California who are the subject of discipline
in a jurisdiction outside of California.
Where Selling v Radford, requires an independent review of record to
determine with the evidence of culpability is infirm as well as other factors
which may make the imposition of discipline unfair and whether due
process was provided in the other jurisdiction, the California statute only
provides for an independent review for whether due process was provided.
BPC 6049.1 (b)(3)
Instead of providing for whether the evidence is infirm or whether other
factors may make the imposition of reciprocal discipline unfair, the
California statute imposes the conclusive presumption of culpability for
professional misconduct of section 6049.1 (a) upon the attorney, subject
only to whether the culpability found in the other jurisdiction is also a basis
for discipline in California as set forth in section 6049.1 (b).

As it is a conclusive presumption as to culpability , no review of the
record for infirmity of the evidence can be considered or other factors that
may make the imposition unfair.

10

Thus, review should be granted to ensure that California attorneys are
not subject to unwarranted discipline based on infirm evidence or other
factors that may make the imposition unfair.
Further, this case shows how the statute can be unfairly applied. While
both the California jurisdiction under State Bar ( Rule 5.103 and the other
jurisdiction under In Re Crayton 192 B.R. 970,975 (9th Cir B.A. P. 1996)
required a clear and convincing standard of proof based on a evidendiary
hearing, the California jurisdiction imposed discipline based on the
conclusive presumption of culpability where the other jurisdiction based its
determination of culpability upon a summary judgment record which used
the prepondance of negligence standard and did not view the evidence in
the light most favorable to the non-moving party, (summary judgment order
page 59:21 to 66:12, index exhibit d) Anderson v. Liberty lobbv.lnc 477
U.S.242,257, (1986)
Indicative of the obpressive nature of the statute, the Trial Counsel the
State Bar of Califonira and prosecuting attorney noted that the reciprocal
discipline was automatic based on the final order of the district court rulling
(page 6:21-24 , index exhibit f); and subsequently developed evidencewhich showed the attorney who filed the complaint in the district court (
page 7, review department opinion, index exhibit a) was the chief trial
attorney for the Office of the San Francisco City attorney, who according to
the City Attorney had a pattern of vilifying opposing attorney and their
clients (page 28:23-24 page 135:23-25 , index exhibit g)
Indeed, while the attorney filed the same complaint in both the District
Court and with the District Court, the State Bar Court dismissed the
complaint only to then stay the complaint until the final conclusion in the
District Court, whereupon it applied for the automatic reciprocal discipline
li

a
based on the summary judgment record which used the lower standard of
proof. (Indeed, as noted by the Hearing Department, “the issue not
whether culpability has been proved’ but whether that misconduct

also

supports culpability under California law and rules. (Page 4, lines 2 to
7,index exhibit f) Thus, the state bar court simply determines whether the
misconduct as found in the district court—supported by a conclusive
presumption—is misconduct in California)
Finally, a recent study by the California State Bar shows that minority
attorneys are subject to discipline at a rate 4 times higher than nonminoirty attorneys. Thus, the incident of unwarranted reciprocal discipline
based on BPC 6049.1 has a potential of harming minority attorneys at a
rate of 4 times that of non-minority attorneys. ( page 2, index exhibit e)
Thus, because the statute subjects all California attorneys to
reciprocal discipline in violation of Selling v Radford. 243 U. S. 46, 51
(1917), including minority attorney at disproportionate rate, this court
should grant review in this matter.
Thus court should accept review for both questions as to whether the
BPC 6049.1 is in violation of Selling v Radford. 243 U. S. 46, 51 (1917)
and as applied.

12

\

6
Conclusion

Under California Business and Profession Code 6049.1 when
considering reciprocal discipline, the statute does not address whether the
evidence of the other jurisdiction so insufficient or infirm—or whether some
other factor makes finding of culpability unjust. It address only whether 1)
the culpability found in the other jurisdiction is also a basis for culpability in
Califorina and 2) whether there was a lack of constitutional protection.
Because Selling v Radford. 243 U. S. 46, 51 (1917) requires a court
considering reciprocal discipline to determine whether the evidence is
sufficient to warrant culpability, and hence discipline, as well as any other
factor that makes the imposition of discipline unjust, as well as whether due
process was afforded the attorney in the other jurisdiction, Business and
Profession Code 6049.1 violates Selling v Radford, supra.
Therefore, this court should grant this petition for writ of certiorari
DATED:

|fo.y iO,i8W2j

Gregory
l M.
In Pro Per

13

lynes

